No. 19-894
In the

Supreme Court of the United States
MICHAEL YAMASHITA, et al.,
Petitioners,
v.
SCHOLASTIC INC.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF IN OPPOSITION

Edward H. Rosenthal
Counsel of Record
Frankfurt Kurnit Klein
& Selz, P.C.
28 Liberty Street
New York, New York 10005
(212) 980-0120
erosenthal@fkks.com
Counsel for Respondent
294641

A
(800) 274-3321 • (800) 359-6859

i
COUNTERSTATEMENT OF THE
QUESTION PRESENTED
Whether Petitioners have presented compelling
reasons to grant the Petition where (1) no Circuit Court
split exists with respect to the proper pleading standard
for copyright infringement; and (2) the Second Circuit’s
decision does not conflict with Feist Publ’ns, Inc. v. Rural
Tel. Serv. Co., Inc., 499 U.S. 340, 361 (1991) or any other
decision of this Court.

ii
PARTIES TO THE PROCEEDINGS AND
CORPORATE DISCLOSURE STATEMENT
There are no parties to the proceedings other than
those listed in the caption. Petitioners Michael Yamashita,
Inc. and Michael Yamashita (collectively “Yamashita”)
were plaintiffs in the district court and appellants in the
court of appeals. Respondent Scholastic Inc. (“Scholastic”)
was defendant in the district court and appellee in the
court of appeals.
Pursuant to Rule 29.6 of the Supreme Court Rules,
Scholastic states that Scholastic Corporation is a publicly
held corporation owning 10% or more of Scholastic Inc.’s
stock.

iii
TABLE OF CONTENTS
Page
COUNTERSTATEMENT OF THE QUESTION
PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
PA R T I E S T O T H E P R O C E E D I N G S
A N D C OR P OR AT E DI S CL O SU R E
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
I.

BACKGROUND AND FACTS OF THE
CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. YA M A S H I T A’ S C O M P L A I N T
CON TA INS NO SPECI FIC
A L L E G A T I O N S
O F
INFRINGEMENT . . . . . . . . . . . . . . . . . . . . 4
B. S C H O L A S T I C M O V E S T O
DISMISS A ND TO TRA NSFER
THE CASE TO THE SOUTHERN
DISTRICT OF NEW YORK  . . . . . . . . . . . . 6

II. PROCEEDINGS BELOW . . . . . . . . . . . . . . . . . . 6

iv
Table of Contents
Page
A. T H E D I S T R I C T C O U R T
DISMIS SES THE CA SE A S A
“FISHING EXPEDITION” AND
“A I M LE S S T R AW LI NG” NO T
PERMITTED BY RULE 8  . . . . . . . . . . . . . 6
B. Y A M A S H I T A ’ S A M E N D E D
C OM PL A I N T L A RGELY
REPEATS THE CONCLUSORY
ALLEGATIONS  . . . . . . . . . . . . . . . . . . . . . . 7
C. T H E A P P E L L A T E C O U R T
AFFIRMS THE LOWER COURT’S
DISMISSAL . . . . . . . . . . . . . . . . . . . . . . . . . . 8
D. Y A M A S H I T A F I L E S H I S
PET I T ION F OR A W R I T OF
CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . 10
III. R E A S ONS F OR DEN Y I NG T H E
PETITION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A. T H E S E C O N D C I R C U I T
DI D NO T I DEN T IF Y A N EW
PL E A DI NG S TA N DA R D F OR
COPYRIGHT INFRINGEMENT
ACTIONS  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
B. CASES CITED FROM THE THIRD
A ND SEV EN TH CIRCUITS
DO NOT CREATE A CIRCUIT
SPLIT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

v
Table of Contents
Page
C. THE SECOND CIRCUIT’S RULE
IS THE CORRECT ONE . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

vi
TABLE OF CITED AUTHORITIES
Page
CASES
Ashcroft v. Iqbal,
556 U.S. 662 (2009) . . . . . . . . . . . . . . . . . . . 2, 11, 12, 15
Baisden v. I’m Ready Prods., Inc.,
693 F.3d 491 (5th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 13
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . 2, 11, 12, 15
Bourne v. Walt Disney Co.,
68 F.3d 621 (2d Cir. 1995) . . . . . . . . . . . . . . . . .  9, 10, 13
Carlin v. Bezos,
649 F. App’x 181 (3d Cir.), cert. denied,
137 S. Ct. 168, 196 L. Ed. 2d 141 (2016),
reh’g denied, 137 S. Ct. 543,
196 L. Ed. 2d 438 (2016) . . . . . . . . . . . . . . . . . . . . . . . 14
CBS Corp. v. F.C.C.,
663 F.3d 122 (3d Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 14
Feist Publ’ns, Inc. v. Rural Tel. Serv. Co.,
499 U.S. 340 (1991)  . . . . . . . . . . . . . . . . . . . . . .  1, 11, 12
Graham v. James,
144 F.3d 229 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . 13

vii
Cited Authorities
Page
Kelly v. L.L. Cool J.,
145 F.R.D. 32 (S.D.N.Y. 1992),
aff’d, 23 F.3d 398 (2d Cir. 1994) . . . . . . . . . . . . . . . . . 12
MacLean Assocs., Inc. v.
Wm. M. Mercer-Meidinger-Hansen, Inc.,
952 F.2d 769 (3d Cir. 1991) . . . . . . . . . . . . . . . . . . . . . 14
MAI Sys. Corp. v. Peak Computer, Inc.,
991 F.2d 511 (9th Cir. 1993) . . . . . . . . . . . . . . . . . . . . 13
In re McGraw-Hill Global Educ. Holdings LLC,
909 F.3d 48 (3d Cir. 2018) . . . . . . . . . . . . . .  2, 11, 13, 14
MDY Indus., LLC v. Blizzard Entm’t, Inc.,
629 F.3d 928 (9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 13
Muhammad-Ali v. Final Call, Inc.,
832 F.3d 755 (7th Cir. 2016) . . . . . . . . . . . .  3, 11, 14, 15
Pa. Pharmacists Ass’n v. Houstoun,
283 F.3d 531 (3d Cir. 2002) . . . . . . . . . . . . . . . . . . . . . 14
Petrella v. Metro-Goldwyn-Mayer, Inc.,
572 U.S. 663 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
SCA Hygiene Prods. Aktiebolag v.
First Quality Baby Prods., LLC,
137 S. Ct. 954 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 16

viii
Cited Authorities
Page
Spinelli v., Nat’l Football League,
903 F.3d 185 (2d Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . 9
Tasini v. N.Y. Times Co.,
206 F.3d 161 (2d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 13
Yamashita v. Scholastic Inc.,
936 F.3d 98 (2d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . . 8
Young-Wolff v. McGraw-Hill Cos.,
No. 13 Civ. 4372, 2014 WL 349711
(S.D.N.Y. Jan. 31, 2014) . . . . . . . . . . . . . . . . . . . . . . . . 16
STATUTES
Copyright Act, 17 U.S.C. § 101 et seq.  . . . . . . . . . . . . . . 16
OTHER AUTHORITIES
3-18 Milgrim on Licensing § 18.64 (2017)  . . . . . . . . . . . 16
Federal Rules of Civil Procedure Rule 8 . . . . . . . . passim

1
BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI
Yamashita claims that the Second Circuit misapplied
the pleading standard for a copyright infringement
claim, and that this standard is being applied differently
in the Second Circuit than in other Circuits. Neither of
these contentions is valid. Yamashita brought an action
for breach of copyright alleging that it had licensed to
Scholastic the right to use certain photographs and that
Scholastic might have exceeded the permitted scope
of those licenses—some of which date back for twenty
years. Yamashita contends that he should be permitted to
proceed with this case despite being unable to plead any
infringing conduct with plausibility as required by Rule 8
of the Federal Rules of Civil Procedure (“Rule 8”), and
to use the action to determine whether any infringement
occurred. In a nutshell, Yamashita seeks to use the courts
to conduct an audit of Scholastic’s uses of his photographs,
an attempt that the district and appellate courts properly
rejected.
Yamashita now seeks to save his claims by arguing
that there is a split between the Second Circuit, on one
hand, and the Third and Seventh Circuits, on the other,
regarding the appropriate pleading standard. He suggests
that the Second Circuit improperly requires a plaintiff
in a copyright infringement case to plead extra elements
in a way that is inconsistent with the two elements of a
copyright infringement claim described by this Court
in Feist Publ’ns, Inc. v. Rural Tel. Serv. Co., 499 U.S.
340 (1991), a case that did not involve any analysis of the
pleading standard. In essence, Yamashita asserts that
the Second Circuit failed to follow Feist and hold that in

2
order to plead a claim for copyright infringement, all a
plaintiff needs to do is to allege, without anything more,
that he: (i) owns some copyrighted material; and (ii) that
the defendant may possibly have used such material in
some unspecified way during some unspecified period of
time without the copyright holder’s permission.
First, Yamashita mischaracterizes the Second
Circuit’s holding. In its decision, the Second Circuit was
clear that its ruling “turn[ed] not on whether there are
two or four elements of a generic copyright infringement
claim…” App.11a-App.12a. The Second Circuit merely
followed the requirements of Rule 8, as they were
articulated by this Court in Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) and Ashcroft v. Iqbal, 556 U.S. 662
(2009), by requiring Yamashita to plead, with plausibility,
that his photographs were actually infringed.
Moreover, to the extent there is any disagreement
between the Circuits that have looked at the pleading
issue, it is exceedingly narrow. Yamashita makes much of
the fact that the Second Circuit followed its long-standing
precedent—shared by the Fifth and Ninth Circuits—by
requiring him to specifically allege use of his photographs
by Scholastic outside of the terms of the licenses his agents
granted and he identified in his Complaint. He claims
that this burden is inconsistent with decisions from the
Third and Seventh Circuits. It is not. To the extent the
Third Circuit suggested that it might apply a different
pleading requirement than the one applied in the Second
Circuit in In re McGraw-Hill Global Educ. Holdings
LLC, 909 F.3d 48 (3d Cir. 2018), that case involved dueling
petitions for writs of mandamus to determine whether
lower courts properly dealt with motions to transfer

3
venue. The pleading standard issue was not before that
court and anything it might have said in the course of its
opinion is therefore dicta. The Seventh Circuit’s decision
in Muhammad-Ali v. Final Call, Inc., 832 F.3d 755 (7th
Cir. 2016), is easily distinguished on its facts because
there, unlike in the instant case, the plaintiff had alleged
copyright infringement with specificity and the defendant
had raised the possible existence of an implied license
in order to justify what the plaintiff had claimed was a
completely unlicensed infringement.
Given that there is no split among the Circuit Courts,
and that the decision of the Second Circuit correctly
applied the pleading standard encapsulated by Rule 8,
Yamashita’s Petition for a Writ of Certiorari should be
denied.
STATEMENT OF THE CASE
I.

BACKGROUND AND FACTS OF THE CASE

Yamashita originally brought this action on June 28,
2016, accusing Scholastic of copyright infringement related
to 119 licensed uses (the “Uses”) of 83 photographs identified
in the exhibit to the Complaint (the “Photographs”).
App.29a-App.75a (the “Complaint” or “Compl.”). The
earliest invoices for these licensed Uses date back to June
16, 1999—nearly eighteen years before Yamashita filed
the Complaint. App.36a-App.37a (Compl., Ex. A rows 1-4).
As of the date of filing, 77 of the invoices for the Uses
(approximately 65%) were at least ten years old. App.36aApp.75a (Compl., Ex. A rows 1-79, 105-118).

4
The case was originally filed in the District Court
for the District of New Jersey. App.29a. That court
transferred the case to the Southern District of New
York pursuant to a mandatory venue provision. The
District Court (Forrest, J.) then dismissed all but one of
Yamashita’s claims for failure to state any cause of action
for copyright infringement. App.21a. The parties settled
the one remaining claim, and an appeal to the Second
Circuit followed. The Second Circuit affirmed the District
Court’s order dismissing the case in a per curiam opinion
published at 936 F.3d 98. App.1a.
A.

YAMASHITA’S COMPLAINT CONTAINS
NO SPECIFIC A LLEGATIONS OF
INFRINGEMENT

Michael Yamashita alleges that he is a professional
photographer who resides in New Jersey. App.30a (Compl.
¶ 2). Michael Yamashita, Inc. is a New Jersey corporation
owned by Mr. Yamashita. App.30a (Compl. ¶ 3). Scholastic
is a New York corporation that is the world’s largest
publisher and distributor of children’s books. App.30a
(Compl. ¶ 4).
In the Complaint, Yamashita claimed that Scholastic
exceeded the scope of 119 licenses granted to Scholastic
and, as a result, infringed the copy rights in the
Photographs at some unspecified time in one or more of
five possible ways. Yamashita provided no factual basis
for his purported belief that this infringement occurred.
He did not identify the way in which any of the licenses
had allegedly been exceeded or when such alleged
infringement had taken place. Yamashita merely pled,
upon information and belief, a list of ways all of these

5
licenses might have been exceeded. App.31a-App.32a
(Compl. ¶ 13 (listing five possible bases for infringement
using an “and/or” connector)). Yamashita confirmed
that he had no specific information on how or when—or,
indeed, if—his Photographs had been infringed, alleging
instead that “Scholastic alone knows the full extent to
which it has infringed Yamashita’s copyrights by making
unauthorized uses of the Photographs, but it has not
shared this knowledge with Yamashita.” App.32a (Compl.
¶ 15). Thus, Yamashita sought to use this litigation as a
means of auditing Scholastic’s use of photographs, some
of which were licensed nearly twenty years ago.
The only material allegations in the Complaint based
on facts (rather than speculation pled on unsupported
information and belief) were that: (1) Yamashita owns the
copyrights in the Photographs (App.31a (Compl. ¶ 7)); (2)
acting through the stock photo agency Corbis Corporation
(“Corbis”), Yamashita sold Scholastic limited licenses to
use those Photographs (App.31a (Compl. ¶¶ 9-10)); and (3)
that Scholastic has been sued for copyright infringement
in other cases involving other photographers and other
publications. App.32a (Compl. ¶ 16). Yamashita did not
identify the purported limits to any license or describe
how or when Scholastic may have exceeded such limits.
The specific information in the Complaint about the
alleged licenses to Scholastic was included in the exhibit
appended to the Complaint, which identified the invoice
date and Corbis’s invoice number for each of these licenses.
App.36a-App.75a. The Exhibit listed 119 licensed Uses,
but identified only three of the Scholastic book titles that
purportedly included licensed Photographs—two of which
were apparently the hardcover and paperback versions

6
of the same publication. App.29a-App.75a (Compl. ¶¶ 16,
72, 80).
B. SCHOLASTIC MOVES TO DISMISS AND TO
TRANSFER THE CASE TO THE SOUTHERN
DISTRICT OF NEW YORK
On September 14, 2016, Scholastic moved to dismiss
the Complaint for failure to meet the standards of Rule
8 and/or to transfer the matter from the District of New
Jersey to the Southern District of New York. App.21aApp.22a. Scholastic also argued that the Complaint failed
to satisfy the requirements of Rule 8 and, in particular,
failed to allege by what acts and at what time Yamashita’s
Photographs were allegedly infringed. See id. Scholastic
further contended that Yamashita improperly was seeking
to audit Scholastic for all uses of his Photographs, despite
lacking any right to do so under the Copyright Act or any
bargained-for contractual right to audit.
On November 29, 2016, the District of New Jersey
(Chesler, J.) ordered transfer, but did not reach Scholastic’s
motion to dismiss. See generally App.21a-22a.
II. PROCEEDINGS BELOW
A.

THE DISTRICT COURT DISMISSES THE
CASE AS A “FISHING EXPEDITION” AND
“AIMLESS TRAWLING” NOT PERMITTED
BY RULE 8

Upon receipt of the case, the District Court for the
Southern District of New York inquired whether Scholastic
intended to renew its motion to dismiss, which it would

7
hear without further briefing. App.21a-22a. Scholastic
confirmed that it did, and the Court thereafter heard the
motion. See generally App.21a-App.24a.
In the order that followed, the District Court dismissed
Yamashita’s Complaint in its entirety for failure to “plead
facts to support its claims beyond mere speculation . . . .”
as is required by Rule 8. App.21a-App.24a (the “Dismissal
Order”). As the District Court stated, while the Complaint
“speculate[d] about ‘various ways’ defendants might have
infringed” Yamashita’s copyrights, it failed to “name a
single instance of infringement or allege facts to establish
a timeframe for when such an infringement might have
occurred.” App.23a. It also rejected Yamashita’s argument
that he properly established a timeframe for the alleged
infringement by claiming that it occurred after Scholastic
obtained the photographs, noting that ‘[a]ny infringement
would necessarily happen ‘after’ defendants accessed the
copyrighted material.” App.23a n.1. The District Court
concluded that “[t]he complaint contain[ed] so few factual
allegations it is nothing more than a fishing expedition.
Rule 8 does not permit such aimless trawling.” App.23a.
B. YAMASHITA’S AMENDED COMPLAINT
LARGELY REPEATS THE CONCLUSORY
ALLEGATIONS
On January 23, 2017, Yamashita sought reconsideration
of the Dismissal Order and leave to file an amended
complaint. App.7a. Yamashita did not contest the District
Court’s finding that the initial Complaint was a fishing
expedition, but asked that the District Court allow him to
replead the very same 119 Uses by providing additional
information related to only one. App.7a.

8
The proposed first amended complaint that Yamashita
attached to his motion provided no additional information
whatsoever regarding 118 of the Uses that the District
Court dismissed and merely included images of 2 other
licensed Uses that provided no indication that Scholastic
exceeded the terms of the licenses for those Uses. See id.
Yamashita instead confirmed, as he did in the Complaint,
that he still had no information of infringement for those
Uses. App.8a. The lone additional fact Yamashita pled
concerned only the Use identified in row 80 of the initial
Complaint (the “Row 80 Use”). Yamashita claimed that a
reference to the publication associated with the Row 80
Use appeared on Scholastic’s website as part of a lesson
plan—with no link or other apparent way to purchase
that book—after the license for the Row 80 Use allegedly
expired. App.7a.
In an Order dated February 28, 2017, the District
Court granted leave to amend only as to the Row 80 Use,
and denied leave as to all other Uses as “plaintiff has
shown not a single fact supportive of an infringement
claim with regard to any of these images.” App.8a-App.9a.
The parties then settled the Row 80 Use (App.9a), and
the case was appealed to the Court of Appeals for the
Second Circuit.
C.

THE APPELLATE COURT AFFIRMS THE
LOWER COURT’S DISMISSAL

The Second Circuit affirmed the District Court’s
dismissal of the Complaint. See App.1a-App. 2 0a
(Yamashita v. Scholastic Inc., 936 F.3d 98 (2d Cir. 2019)).
The appellate court acknowledged that Yamashita had
pointed to Feist, and that he had urged the court to find

9
that, under that decision, he need only establish two
elements—(1) ownership of a valid copyright and (2)
copying of the constituent elements of the work that are
original—in order to properly plead his claim. App.10aApp.11a. However, the Second Circuit was clear that “the
correct disposition here turns not on whether there are
two or four elements of a generic copyright infringement
claim, but…whether, in pleading copyright infringement,
a plaintiff who has authorized the licensed use of its
work to the alleged infringer must allege with specificity
facts concerning the limits and asserted breaches of the
licenses…” App.11a.
In finding that Yamashita did not meet this standard,
the Second Circuit confirmed that while the existence of
a license is “generally viewed as an affirmative defense
to a claim of copyright infringement” (App.11a-App.12a
(citing Bourne v. Walt Disney Co., 68 F.3d 621, 630-31 (2d
Cir. 1995); Spinelli v., Nat’l Football League, 903 F.3d 185,
199 (2d Cir. 2018)), “in cases where only the scope of the
licenses is at issue, the copyright owner bears the burden
of proving that the defendant’s copying was unauthorized.”
App.12a (quoting Bourne, 68 F.3d at 631). In other words,
“when the existence of a license is not in question, a
copyright holder must plausibly allege that the defendant
exceeded particular terms of the license.” App.12a
(emphasis in original). The Second Circuit ultimately held
that “[a]bsent at least a modicum of such additional factual
allegations, Yamashita’s Complaint is fairly characterized
as no more than a collection of speculative claims based on
suspicion alone. Such a complaint for infringement neither
complies with Rule 8 nor states a plausible claim for relief.
Accordingly, we are compelled to agree with the District
Court that the Complaint does not survive Scholastic’s
motion to dismiss.” App.14a.

10
In so holding, the Second Circuit held that “to sustain
such a compliant that alleges nothing but suspicions of
infringement where a license has been granted is to
invite transformation of the courts into an audit bureau
for copyright licensing, an administrative function that
[they] are hardly designed to serve.” App.16a. The court
also noted that although the Third Circuit had “expressed
disagreement” with the Second Circuit’s approach in
Bourne, that case was decided “in a procedural context
quite different from that before” the Second Circuit.
App.18a-App.19a. Yamashita thus had to “marshal more
than unsubstantiated suspicions to gain entitlement to
broad-ranging discovery of his agent’s licensee,” i.e.,
Scholastic. App.17a.
The Second Circuit subsequently denied Yamashita’s
petition to rehear the case en banc. App.25a-App.26a.
D.

YAMASHITA FILES HIS PETITION FOR A
WRIT OF CERTIORARI

Yamashita filed a Petition for a Writ of Certiorari to
this Court (the “Petition”). The Petition claims that the
fundamental issue is whether the Second Circuit “err[ed]
in holding that a complaint for copyright infringement
must be dismissed unless it alleges particular facts
showing ‘1) which specific original works are the subject of
the copyright claim, 2) that plaintiff owns the copyrights in
those works, 3) that the copyrights have been registered in
accordance with the statute, and 4) [as now required by the
Second Circuit but not by the Third and Seventh Circuits]
by what acts during what time the defendant infringed the
copyright’?” Petition at 2 (emphasis in original). Yamashita
further argues that this final element stands in conflict

11
with the Third Circuit’s decision in In re McGraw-Hill,
the Seventh Circuit’s decision in Muhammad-Ali and this
Court’s holding in Feist. See id.
III. REASONS FOR DENYING THE PETITION
A.

THE SECOND CIRCUIT DID NOT IDENTIFY
A N EW PLEA DI NG STA N DA RD FOR
COPYRIGHT INFRINGEMENT ACTIONS

Yamashita argues that the Petition presents a
question that “is both straightforward and manifestly
important.” Petition at 6. He claims that “there is one
pleading standard [for copyright infringement claims]
in New York and a very different one in Chicago and
Philadelphia.” Id. This is not the case.
The Second Circuit was clear that it was not applying
any heightened pleading standard. While the court
acknowledged that “[t]he parties ha[d] framed their dispute
about the Complaint’s sufficiency around the question
whether the District Court erred by adopting the…fourpart definition of an adequate copyright infringement
claim…the correct disposition here turns not on whether
there are two or four elements of a generic copyright
infringement claim, but instead on the implications of
the fact, acknowledged in Yamashita’s Complaint, that
Scholastic procured licenses to copy the Photographs.”
App.10a-App.11a. All that the Second Circuit did was to
analyze the sufficiency of Yamashita’s Complaint under
Rule 8 and the standards articulated by this Court in
both Iqbal and Twombly. In doing so, it found that the
Complaint did not meet this standard. App.14a (“Absent
at least a modicum of such additional factual allegations,

12
Yamashita’s Complaint is fairly characterized as no more
than a collection of speculative claims based on suspicion
alone. Such a complaint for infringement neither complies
with Rule 8 nor states a plausible claim for relief.”).
To the extent the District Court—and not the Second
Circuit—relied on the articulation of the elements of a
copyright claim in Kelly v. L.L. Cool J., 145 F.R.D. 32
(S.D.N.Y. 1992), aff’d 23 F.3d 398 (2d Cir. 1994), Kelly is in
no way inconsistent with Feist. Yamashita is correct that
Feist—a thirty-year-old case famously involving an issue
concerning the copyrightability of listings in a telephone
book rather than the pleading standard (id., 499 U.S. at
342)—articulates only two elements that must be proven
to establish copyright infringement: “(1) ownership of a
valid copyright, and (2) copying of constituent elements of
the work that are original” (id. 361), where Kelly breaks
these elements down to a more granular four. See Kelly,
145 F.R.D. at 36 (“A properly plead copyright infringement
claim must allege 1) which specific original works are the
subject of the copyright claim, 2) that plaintiff owns the
copyrights in those works, 3) that the copyrights have
been registered in accordance with the statute, and 4)
by what acts during what time the defendant infringed
the copyright.”). However, Kelly—decided and affirmed
after Feist—merely articulates the types of facts that
must be pled to establish this second element with the
requisite amount of particularity required by Rule 8 and
the standards articulated in Iqbal and Twombly.
Accordingly, this case neither presents a Circuit split
on what the appropriate pleading standard is for copyright
cases, or otherwise conflicts with the precedent of this
Court. The Petition should therefore be denied.

13
B. CASES CITED FROM THE THIRD AND
SEVENTH CIRCUITS DO NOT CREATE A
CIRCUIT SPLIT
If the Petition points to any disagreement at all
between Circuits it is far narrower than the pleading
standard, and not a Circuit split.
As the Second Circuit recognized in this case (see
App.11a-App.12a), it long ago adopted the rule that,
where the existence of a license is clear from the face of
the Complaint, the copyright owner must plead—and, in
later stages, prove—that that license has been exceeded.
See Bourne, 68 F.3d at 631 (2d Cir. 1995); Graham v.
James, 144 F.3d 229, 236 (2d Cir. 1998); Tasini v. N.Y.
Times Co., 206 F.3d 161, 171 (2d Cir. 2000). This is also
the rule in the Ninth Circuit (see MDY Indus., LLC v.
Blizzard Entm’t, Inc., 629 F.3d 928, 940 (9th Cir. 2010)
(in the face of a license, “the potential for infringement
exists only where the licensee’s action (1) exceeds the
license’s scope (2) in a manner that implicates one of the
licensor’s exclusive statutory rights.”); MAI Sys. Corp.
v. Peak Computer, Inc., 991 F.2d 511, 517 (9th Cir. 1993)
(same)) and the Fifth Circuit. See Baisden v. I’m Ready
Prods., Inc., 693 F.3d 491 (5th Cir. 2012) (upholding jury
instruction in a copyright infringement case that stated
that “[Plaintiff] must prove by a preponderance of the
evidence that Defendants’ copying was not authorized by
this license”).
While the Third Circuit indicated that it may be
inclined to establish a different rule in In re McGrawHill, that case is hardly binding Third Circuit precedent.
In re McGraw-Hill involved dueling petitions for writs of

14
mandamus to determine whether two lower courts properly
dealt with motions to transfer venue. See id., 909 F.3d at
52 (“These consolidated mandamus petitions require us to
decide whether two professional photographers bringing
separate copyright infringement actions are bound by a
forum selection clause in contracts they did not sign.”). The
proper pleading standard was not in front of the court,
and thus anything said on the subject is dicta. See CBS
Corp. v. F.C.C., 663 F.3d 122, 164 (3d Cir. 2011) (finding
was “merely background information incidental to the
Supreme Court’s holding and therefore dicta.”).
The decision in In re McGraw-Hill also is contrary to
prior, binding Third Circuit precedent affirming dismissal
of a copyright infringement claim where the plaintiff had
not demonstrated that defendant exceeded the scope of
the license Plaintiff granted. See Carlin v. Bezos, 649 F.
App’x 181, 182 (3d Cir.), cert. denied, 137 S. Ct. 168, 196
L. Ed. 2d 141 (2016), reh’g denied, 137 S. Ct. 543, 196 L.
Ed. 2d 438 (2016)); see also MacLean Assocs., Inc. v. Wm.
M. Mercer-Meidinger-Hansen, Inc., 952 F.2d 769, 779
(3d Cir. 1991) (a copyright owner who grants a license
to use his copyrighted material typically can maintain a
claim of copyright infringement only by showing that the
“licensee’s use goes beyond the scope of the nonexclusive
license.”). Thus, even had the issue been in front of the In
re McGraw-Hill panel—and it was not—the panel would
not have been free to overrule these prior decisions. See
Pa. Pharmacists Ass’n v. Houstoun, 283 F.3d 531, 534 (3d
Cir. 2002) (“Under a longstanding practice of our Court,
a panel may not overrule another panel decision”).
Muhammad-Ali, while somewhat closer to the instant
case in terms of its procedural posture, is distinguishable

15
on its facts. There, the plaintiff had not pled that a license
had been issued and the case did not involve the question
whether the claim of infringement had been pleaded with
the requisite specificity. Rather, the defendant, faced
with a claim of copyright infringement based upon its
distribution of lithographs depicting Louis Farrakhan,
asserted that its use had been permitted under an implied
license. See id., 832 F.3d at 762. In other words, unlike
the situation here, there was a dispute as to the existence
of the license rather than simply to its scope, and placing
the onus of establishing a license on the licensor makes
more sense.
Neither of these cases creates a Circuit split on even
this narrower issue of which party bears the burden of
pleading or proving that a use exceeded the scope of a
license, and thus this petition should be denied.
C.

THE SECOND CIRCUIT’S RULE IS THE
CORRECT ONE

In any case, the Second Circuit’s rule is the better
choice, as it follows the requirements of Rule 8 as they
were articulated by this Court in Iqbal and Twombly.
By Yamashita’s own admission, at the time he filed his
Complaint, he lacked knowledge that Scholastic infringed
any of his copyrighted works. See App.32a (Compl. ¶¶ 1415). He instead sought to turn a claim for copyright
infringement into an opportunity to audit Scholastic’s
uses of his photographs, and relied on the continued
viability of the so-called “discovery rule” as governing the
question as to when the statute of limitations accrues in

16
copyright cases1 to extend that audit back nearly twenty
years. This is not only inconsistent with the Copyright
Act, which does not grant copyright owners a statutory
right to audit supposed uses of their works (see 17 U.S.C.
§ 106 (identifying the exclusive rights of copyright owners,
which does not include an audit right); see also Young-Wolff
v. McGraw-Hill Cos., No. 13 Civ. 4372, 2014 WL 349711, at
*6-8 (S.D.N.Y. Jan. 31, 2014) (“Plaintiff points to neither
case law nor language in the Copyright Act[] indicating
that a copyright owner has an inherent right to sue a
licensee for an audit.”)), but with Yamashita’s licenses,
which did not provide him with an audit right despite the
fact that such provisions are common. See 3-18 Milgrim
on Licensing § 18.64 (2017) (“One of the most common
provisions of a license agreement is a provision giving the
licensor the right to verify or otherwise confirm running
royalty reports (or other promised performance) of the
license.”).
To permit a plaintiff to assert copyright claims based
on licenses issued many years ago without requiring
her to plead specific facts supporting her infringement
1. Although it is not before the Court in this case, two recent
decisions by this Court cast doubt on the continued viability of the
discovery rule. See Petrella v. Metro-Goldwyn-Mayer, Inc., 572 U.S.
663 (2014); SCA Hygiene Prods. Aktiebolag v. First Quality Baby
Prods., LLC, 137 S. Ct. 954, 961-62 (2017). This case makes plain why
the “injury rule” is not only a more appropriate interpretation of the
Copyright Act’s language indicating that “[n]o civil action shall be
maintained under the provisions of this title unless it is commenced
within three years after the claim accrued (17 U.S.C. § 507(b)), but
makes more sense in practice because it would prevent licensors from
looking back twenty or more years in an effort to uncover licensee
wrongdoing.

17
allegations would, for all intents and purposes, extend
the statute of limitations to seek recovery back through
the entire term of copyright. Imagine if the grantor of
some type of license to use her copyrighted material in
the motion picture Gone With the Wind could, in 2016,
could suddenly claim that she believed that her license
might have been exceeded 60 years ago and pursue a
lawsuit for conduct that may or may not have occurred
decades ago. This would be an absurd result that would
threaten to undermine the established licensing scheme
in publishing, entertainment and other contexts, where (as
here) licensors bargain for audit rights but are required
to pursue such rights during applicable time periods.
It would also place undue burden on the courts. As
the Second Circuit recognized in this case, “to sustain
such a complaint that alleges nothing but suspicions of
infringement where a license has been granted is to
invite transformation of the courts into an audit bureau
for copyright licensing, an administrative function that
we are hardly designed to serve.” App.16a. Thus, even if
there were any disagreement among the Circuits—and,
as noted above, there is not—the rule as articulated by
the Second, Fifth and Ninth Circuits and applied in this
case, would be the correct one.

18
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.
				Respectfully submitted,
Edward H. Rosenthal
Counsel of Record
Frankfurt Kurnit Klein
& Selz, P.C.
28 Liberty Street
New York, New York 10005
(212) 980-0120
erosenthal@fkks.com
Counsel for Respondent
March 19, 2020

